                 AUDIT REPORT

     Audit of NRC’s Process for Calculating License Fees


                  OIG-13-A-02          October 24, 2012




All publicly available OIG reports (including this report) are accessible through

                              NRC’s Web site at:

          http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                              UNITED STATES
                      NUCLEAR REGULATORY COMMISSION
                               WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                          October 24, 2012




MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations

                            J.E. Dyer
                            Chief Financial Officer



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S PROCESS FOR CALCULATING
                            LICENSE FEES (OIG-13-A-02)


Attached is the Office of the Inspector General’s report titled, Audit of NRC’s Process for
Calculating License Fees.

The report presents the results of the subject audit. The agency had no comments during
the October 16, 2012, exit conference.

Please provide information on actions taken or planned on the recommendations within 30
days of the date of this memorandum. Actions taken or planned are subject to OIG
followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the audit.
If you have any questions or comments about our report, please contact me at 415-5915
or Kathleen Stetson, Team Leader, at 415-8175.


Attachment: As stated

cc:    N. Mamish, OEDO
       K. Brock, OEDO
       J. Arildsen, OEDO
       C. Jaegers, OEDO
                                               Audit of NRC’S Process for Calculating License Fees




EXECUTIVE SUMMARY

     BACKGROUND

          The Omnibus Budget Reconciliation Act of 1990 (OBRA-90), as amended, requires that
          the U.S. Nuclear Regulatory Commission (NRC) recover, through fees assessed to its
          applicants and licensees, approximately 90 percent of its budget authority [less amounts
          appropriated for waste incidental to reprocessing activities and amounts appropriated
          for generic homeland security activities (“non-fee items”)].

          NRC assesses two types of fees to meet the requirements of OBRA-90 – user fees and
          annual fees. First, user fees, presented in Title 10, Code of Federal Regulations (10 CFR),
          Part 170, under the authority of the Independent Offices Appropriation Act of 1952
          (IOAA), recover NRC’s costs of providing special benefits to identifiable applicants and
          licensees. In FY 2012, the estimated 10 CFR Part 170 fees totaled $345.2 million.
          Second, annual fees, presented in 10 CFR Part 171 under the authority of OBRA-90, as
          amended, recover generic regulatory costs not recovered through 10 CFR Part 170 fees.
          In FY 2012, the 10 CFR Part 171 fee collections required totaled $555.8 million.

          As noted in 10 CFR Part 170, in FY 2012 NRC’s budget authority was $1,038.1 million and
          non-fee items were $27.5 million. The total amount of fees to recover in FY 2012 was
          $909.5 million (this includes the Part 170 and 171 fees as well as the Part 171 billing
          adjustments).




                                                                                                   1
                                           Audit of NRC’S Process for Calculating License Fees




                    Total Budget Authority: $1,038.1 Million


                                                                          Non-Fee Items
                                                                          ($27.5M)
                                                                          Fee Relief
                                                                          ($101.1M)
                                                                          Fee Recoverable
                                                                          ($909.5M)




       On an annual basis, NRC amends the licensing, inspection, and annual fees. The NRC
       publishes the annual Fee Rule in the Federal Register.

OBJECTIVE

       The audit objective was to determine if NRC has established and implemented
       management controls to ensure that the license fee calculation process produces timely
       and accurate fees in accordance with applicable requirements.

RESULTS IN BRIEF

       The agency has established and implemented management controls to ensure that the
       license fee calculation process produces timely and accurate fees in accordance with
       applicable requirements. However, we have identified the following opportunities to
       further improve the license fee calculation process:

              Prepare and document an annual Fee Rule validation (budget vs. cost analysis)
              and make adjustments as needed to the fee calculation process.

              Document all steps performed in calculating the Fee Rule in the desk procedures
              (Fee Handbook) to enable a new preparer to re-perform or complete the
              calculation.

              Prepare and complete detailed quality control license fee calculation checklists
              and document supervisory review and approval on the checklists.
                                                                                                 2
                                       Audit of NRC’S Process for Calculating License Fees

RECOMMENDATIONS

     This report makes recommendations to improve the agency’s controls over the license
     fee calculation process. A consolidated list of these recommendations appears in
     Section IV of this report.

AGENCY COMMENTS

     OIG held an exit conference with the agency on October 16, 2012. Agency management
     stated their agreement with the report findings and recommendations, and opted not
     to provide formal comments.




                                                                                        3
                                           Audit of NRC’S Process for Calculating License Fees




ABBREVIATIONS AND ACRONYMS

                CFR          Code of Federal Regulations

                CLA          CliftonLarsonAllen LLP

                FY           Fiscal Year

                IOAA         Independent Offices Appropriations Act of 1952

                NRC          Nuclear Regulatory Commission

                OCFO         Office of the Chief Financial Officer

                OBRA-90      Omnibus Budget Reconciliation Act of 1990, as amended

                OMB          Office of Management and Budget




                                                                                            4
                                             Audit of NRC’S Process for Calculating License Fees



TABLE OF CONTENTS

           EXECUTIVE SUMMARY                                                                  1

           ABBREVIATIONS AND ACRONYMS                                                         4

           I.       BACKGROUND                                                                6

           II.      OBJECTIVE                                                                 8

           III.     FINDINGS                                                                  9

                    A. Prepare and Document an Annual Fee Rule Validation
                       (Budget vs. Cost Analysis)                                             9

                    B. Document All Steps Performed in Calculating the Fee Rule
                       in the Desk Procedures (Fee Handbook)                                11

                    C. Prepare and Complete Detailed Quality Control Fee
                       Calculation Checklists                                               12

           IV.      CONSOLIDATED LIST OF RECOMMENDATIONS                                    13

           V.       AGENCY COMMENTS                                                         13

           APPENDIX

                    OBJECTIVE, SCOPE, AND METHODOLOGY                                       14




                                                                                              5
                                              Audit of NRC’S Process for Calculating License Fees

I.   BACKGROUND

         Under 10 CFR Part 170 and 10 CFR Part 171 (as published in the Federal Register) NRC
         assesses user fees and annual fees to licensees to meet the requirements of OBRA-90.
         OBRA-90, as amended, requires that NRC recover, through fees assessed to its
         applicants and licensees, approximately 90 percent of its budget authority [less amounts
         appropriated for Waste Incidental to Reprocessing activities and amounts appropriated
         for generic homeland security activities (“non-fee items”)].

         User fees, presented in 10 CFR Part 170 under the authority of the IOAA, recover NRC’s
         costs of providing special benefits to identifiable applicants and licensees. NRC assesses
         these fees, for example, to cover the costs of inspections, applications for new licenses
         and license renewals, and requests for license amendments. NRC develops an hourly
         rate to charge licensees for its services. In FY 2012, the estimated 10 CFR Part 170 fees
         totaled $345.2 million.

         Annual fees which are implemented through 10 CFR Part 171 recover generic regulatory
         costs not otherwise recovered through 10 CFR Part 170. In FY 2012, the 10 CFR Part 171
         fee collections totaled $555.8 million.

         NRC determines the amount of fees to recover for the current fiscal year by subtracting
         the non-fee items (amounts appropriated for waste incidental to reprocessing and
         amounts appropriated for generic homeland security activities) from the total budget
         authority for the current fiscal year. The amount of Part 171 fee collections required to
         be collected is determined based on the total amount to recover less billing adjustments
         and estimated Part 170 fees. The estimated Part 170 fees to collect for the current fiscal
         year are determined using the latest billing data available for each license fee class.

         In our review of the license fee calculation process, we noted that the license fee
         calculation performed by the Office of the Chief Financial Officer (OCFO) Accountant
         includes four main spreadsheets: the Budget Allocation File; the Proposed Fee Rule
         Calculation; the Part 170 Estimates for the Final Fee Rule; and the Final Fee Rule
         Calculation. These spreadsheets gather data and calculate the hourly rate, Part 171
         annual fees, materials Part 170 application fees, and average inspection costs. The
         spreadsheet preparation began in FY 2011 (prior to the beginning of the fiscal year) in
         order to issue the fee rule in 2012. The FY 2012 proposed Fee Rule was published in
         March of 2012 with comments due back in April of 2012. The FY 2012 final Fee Rule was
         published in June of 2012 with the rule becoming effective on August 14, 2012.


                                                                                                 6
                                      Audit of NRC’S Process for Calculating License Fees

CliftonLarsonAllen (CLA) reviewed the various calculations and data that are part of the
Fee Rule calculation to identify the potential risks related to the calculation. CLA noted
there is an inherent risk in the calculation in the fact that NRC must use budgeted costs
instead of actual costs (as actual costs would not be available until after the entire year
is complete). Another risk CLA identified is that the amount of fees to recover for each
fee class is based on the budget allocations from the program offices. The following
offices allocate their direct budgeted resources to the different fee classes and fee-relief
activities:

        Office of the Advisory Committee on Reactor Safeguards
        Office of Administration
        Atomic Safety and Licensing Board Panel
        Office of Federal and State Materials and Environmental Management Programs
        Office of Nuclear Material Safety and Safeguards
        Office of New Reactors
        Office of Nuclear Reactor Regulation
        Office of Nuclear Security and Incident Response
        Office of Enforcement
        Office of the General Counsel
        Office of Investigations
        Office of International Programs
        Office of Nuclear Regulatory Research

If these allocations are not accurate (improperly spread), a fee class may end up with
over or under charged fees. The final risk CLA identified was in the calculation of the
annual fees. In certain fee classes (fuel facility, materials and uranium recovery), the
annual fees are different for the different categories of licensees. For example, the
annual fees in the fuel facility class are broken out between the fee categories based on
level of effort associated with regulating each of the fee categories as determined by
the program office. These factors are determined by the office and as a result require
more analysis and judgment. CLA identified these risks as a way to identify areas of the
fee calculation that would require more review.




                                                                                          7
                                                Audit of NRC’S Process for Calculating License Fees

II.   OBJECTIVE

            The audit objective was to determine if NRC has established and implemented
            management controls to ensure that the license fee calculation process produces timely
            and accurate fees in accordance with applicable requirements.




                                                                                                 8
                                               Audit of NRC’S Process for Calculating License Fees




III.   FINDINGS

            The agency has established and implemented management controls to ensure that the
            license fee calculation process produces timely and accurate fees in accordance with
            applicable requirements. However, we have identified the following opportunities to
            further improve the license fee calculation process:
                        Prepare and document an annual Fee Rule validation (budget vs. cost
                        analysis) and make adjustments as needed to the fee calculation process.
                        Document all steps performed in calculating the Fee Rule in the desk
                        procedures (Fee Handbook) to enable a new preparer to re-perform or
                        complete the calculation.
                        Prepare and complete detailed quality control license fee calculation
                        checklists and document supervisory review and approval on the checklists.



         A. PREPARE AND DOCUMENT AN ANNUAL FEE RULE VALIDATION (BUDGET VS.
            COST ANALYSIS)

                   NRC prepared and published the final Fee Rule for FY 2012 approximately nine
                   months into the fiscal year. Because the Fee Rule is prepared prior to the end of
                   the fiscal year, budget data must be used in the Fee Rule calculation (i.e., in
                   hourly rate calculation and allocations to fee classes) as opposed to actual data
                   for the year.

                   The hourly rate calculation (Table II in the FY 2012 Fee Rule) is prepared using
                   budgeted cost data for the current year. In the past, after the fiscal year was
                   complete, NRC recalculated the hourly rate using actual cost data. NRC then
                   compared the hourly rate using actual cost data to the hourly rate published in
                   the Fee Rule to determine the reasonableness of the hourly rate published in
                   the annual Fee Rule. CLA requested the validation for the prior year and found
                   that the validation had not been performed for the FY 2010 or FY 2011 fee rule
                   (last performed for FY 2009). Per discussion with NRC staff, this was due to the
                   implementation of the new accounting system in FY 2011 and the applicable
                   cost reports not being available to perform the validation. CLA reviewed the FY
                   2009 validation and noted that the difference between the budget and actual
                   hourly rate was within NRC’s reasonableness range.

                                                                                                  9
                             Audit of NRC’S Process for Calculating License Fees

Furthermore, the offices (identified in the Background section above) estimate
the allocations between the fee classes (i.e., reactor, materials, etc.) in the Fee
Rule and there is a possibility that actual breakouts between fee classes could
be different from the estimates. NRC should perform validation procedures to
identify the accuracy of the allocations between the fee classes.

Because the hourly rate calculation is dependent upon budgeted amounts and
allocations to fee classes are estimated, NRC should ensure that this validation
is prepared each year and that cost reports are available to complete the
validation. This validation provides useful monitoring to NRC management of
the accuracy of the Fee Rule as well as their calculation procedures. NRC should
perform monitoring procedures in accordance with Office of Management and
Budget (OMB) Circular A-123, Management’s Responsibility for Internal
Controls, which states:

      Monitoring the effectiveness of internal control should occur in the
      normal course of business.         In addition, periodic reviews,
      reconciliations or comparisons of data should be included as part of
      the regular assigned duties of personnel. Periodic assessments
      should be integrated as part of management’s continuous
      monitoring of internal control, which should be ingrained in the
      agency’s operations.

Monitoring the actual costs vs. budgeted costs provides insight into the
accuracy of the budget allocation process. If a significant variance was noted,
NRC could then review the budget allocation process to identify any
adjustments that could be made to their fee calculation process.

Recommendations

We recommend that the Chief Financial Officer:

        1. Prepare and document an annual Fee Rule validation (budget vs.
           cost analysis) and make adjustments as needed to the fee
           calculation process.




                                                                                10
                                    Audit of NRC’S Process for Calculating License Fees



B. DOCUMENT ALL STEPS PERFORMED IN CALCULATING THE FEE RULE IN THE
   DESK PROCEDURES (FEE HANDBOOK)

        NRC has prepared a Handbook for License Fee Policy and Procedures (Fee
        Handbook). This document serves as guidance to OCFO staff in developing and
        establishing the NRC fees required to be collected each year as well as guidance
        in the preparation of the Federal Register rulemaking document. CLA reviewed
        the Handbook, issued as of 9/1/11, and found that NRC was still in the process
        of updating it in FY 2012. The Handbook included steps related to preparing the
        budget allocation file and the fee calculation file; however, it did not include
        procedures in preparing the Part 170 estimates for the final Fee Rule
        spreadsheet. In accordance with OMB Circular A-123, “Management’s
        Responsibility for Internal Controls,” NRC should ensure that control activities
        including policies and procedures are in place to help ensure that agency
        objectives are met (e.g., Appropriate documentation). Because the fee
        calculation is complex and NRC has only one person who prepares the
        calculations, thoroughly documented procedures of each step necessary to
        prepare the fee calculation are critical to ensure that a new preparer without
        any prior knowledge of the calculation would be able to complete the fee
        calculation.

        Recommendation

        We recommend that the Chief Financial Officer:

                2. Document all steps performed in calculating the Fee Rule in the
                   desk procedures (Fee Handbook) to enable a new preparer to re-
                   perform or complete the calculation.




                                                                                     11
                                    Audit of NRC’S Process for Calculating License Fees



C. PREPARE AND COMPLETE DETAILED QUALITY CONTROL FEE CALCULATION
   CHECKLISTS

        The OCFO Accountant uses various spreadsheets to prepare the License Fee
        calculation. The Accountant uses these spreadsheets to collect the data
        received from the program offices as well as to calculate the license fees
        published in the proposed and final Fee Rule. The main spreadsheets are the
        Budget Allocation File, the Proposed Fee Rule Calculation, the Part 170 estimate
        for the Final Fee Rule, and the Final Fee Rule Calculation. These spreadsheets
        involve complex and detailed calculations. As a result, NRC would benefit from
        creating quality control checklists and having the Accountant complete the
        checklists as they prepare each spreadsheet. This would help to ensure that all
        the steps necessary to complete the fee calculation are completed each year
        and would ensure consistency from year to year. In accordance with OMB
        Circular A-123, “Management’s Responsibility for Internal Controls,” NRC should
        ensure that control activities including policies and procedures are in place to
        help ensure that agency objectives are met. Although a supervisor signs off on
        the Fee Rule, a supervisor does not sign off on the detailed
        calculations/spreadsheets. Because the calculations are so complex, the quality
        control checklists should also be used by the supervisor who is reviewing the
        detailed calculations/spreadsheets to ensure that the supervisor as the reviewer
        performs a thorough review of the calculations. The supervisor should then sign
        the checklist to document his or her review and approval. This type of
        procedure would help ensure that the calculations are accurate and document
        the supervisor’s approval of the calculations.

        Recommendation

        We recommend that the Chief Financial Officer:

                3. Develop quality control checklists to use during the preparation of
                   the license fee calculation spreadsheets.

                4. Ensure a supervisor reviews the completed checklists and
                   documents the review and approval on the quality control
                   checklists.



                                                                                     12
                                               Audit of NRC’S Process for Calculating License Fees



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

           We recommend that the Chief Financial Officer:

           1.   Prepare and document an annual Fee Rule validation (budget vs. cost analysis) and
                make adjustments as needed to the fee calculation process.

           2.   Document all steps performed in calculating the Fee Rule in the desk procedures
                (Fee Handbook) to enable a new preparer to re-perform or complete the
                calculation.

           3.   Develop quality control checklists to use during the preparation of the license fee
                calculation spreadsheets.

           4.   Ensure a supervisor reviews the completed checklists and documents the review
                and approval on the quality control checklists.



V.    AGENCY COMMENTS

           OIG held an exit conference with the agency on October 16, 2012. Agency management
           stated their agreement with the report findings and recommendations, and opted not
           to provide formal comments.




                                                                                                13
                                               Audit of NRC’S Process for Calculating License Fees



                                                                                        Appendix

OBJECTIVE, SCOPE, AND METHODOLOGY

           OBJECTIVE

                   The audit objective was to determine if NRC has established and implemented
                   management controls to ensure that the license fee calculation process
                   produces timely and accurate fees in accordance with applicable requirements.

           SCOPE

                   The audit focused on reviewing the management controls surrounding the
                   licensee fee calculation process to ensure the license fee calculation produces
                   timely and accurate fees. CLA reviewed Federal guidance pertaining to
                   monitoring of internal controls, including OMB Circular A-123, Management’s
                   Responsibility for Internal Controls. We conducted this audit at NRC
                   headquarters (Rockville, MD) from April 2012 through July 2012. We reviewed
                   the license fee calculation spreadsheets and met with the OCFO personnel who
                   prepare the calculation. Throughout the audit, auditors were aware of the
                   possibility or existence of fraud, waste, or abuse in the program.

           METHODOLOGY

                   CLA reviewed the laws governing NRC’s fees including:

                          Independent Offices Appropriation Act of 1952 (IOAA).

                          Omnibus Budget Reconciliation Act of 1990, as amended (OBRA-90).

                          10 CFR Parts 170 and 171 Revision of Fees Schedule; Fee Recovery for
                          Fiscal Year 2012.

                   CLA met with the OCFO Accountant who prepares the license fee calculation.
                   The OCFO Accountant walked us through the fee calculation spreadsheets and
                   how they are prepared. We then performed testing of the different
                   spreadsheets including reviewing the mathematical accuracy of the calculations,
                   reviewing the methodology for reasonableness, and agreeing the calculations to
                   the budget appropriation and actual billings, as appropriate. We reviewed the
                   following spreadsheets:
                                                                                               14
                            Audit of NRC’S Process for Calculating License Fees

       Budget Allocation.
       Proposed Fee Rule Calculation.
       Part 170 Estimates for Final Fee Rule.
       Final Fee Rule Calculation.

We also met with an NRC program office (Office of Federal and State Materials
and Environmental Management Programs) to discuss its involvement in the
preparation of the budget allocation spreadsheet.

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.




                                                                            15
